Case: 19-6461

Document: 30-2

Filed; 12/02/2020

Page: 1

(2 of 15)

NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0680n.06
No. 19-6461
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED
Dec 02, 2020
DEBORAH S. HUNT, Clerk

UNITED STATES OF AMERICA,

)
)
)
)
)
)
)
)
)
)
)
)

Plaintiff-Appellee,
v.

WALTER EUGENE POWELL,
Defendant-Appellant.

ON APPEAL FROM THE
THE UNITED STATES DISTRICT
COURT FOR THE EASTERN
DISTRICT OF KENTUCKY
OPINION

BEFORE: CLAY, GIBBONS, and NALBANDIAN, Circuit Judges.
NALBANDIAN, Circuit Judge. Walter Powell pled guilty to violating federal drug law
based on evidence gathered from his hotel room. He appeals two holdings by the district court.
The first was a denial of his motion to suppress evidence from that room. And the second was the
district court’s designation of Powell as a career offender. For the reasons below, we AFFIRM.
I.
A.
Our story starts at the Microtel in Lexington, Kentucky, where Powell had rented a room.
While on duty, Eugene Zita—an assistant manager at the hotel—received complaints from an
employee that there was a strong marijuana odor coming from a room. She investigated the smell
and tracked it to Powell’s room, Room 122. After knocking on the door and receiving no response,
Zita decided to evict the room’s occupants because the Microtel had a strict no-smoking policy.

Case: 19-6461

Document: 30-2

Filed: 12/02/2020

Page: 2

Case No. 19-6461, United States v. Powell
So Zita called the police “to help [her] out” “[i]n case they are dangerous people.” (R. 41, Tr. of
Suppression Mot. Proceedings, PagelD # 185.) Zita testified that she didn’t want the police to
arrest the evicted guests or even search their things; she only “wanted them to help [her] get this
person out of the hotel.” {Id. at PagelD # 187.)
Lexington Police Department Officers Christopher Johnson and Paul Hogan responded to
Zita’s call. When they arrived, they visited Zita at the hotel’s front desk, but she was busy, so she
directed them toward Powell’s room. Hogan and Johnson went to the room and knocked but, like
Zita, received no response. Officer Johnson then walked around to the outside of the hotel to check
if he could see inside the room through the window, but the blinds were drawn.
The officers returned to the front desk, and Zita told them “she wanted to evict” the
occupants of Room 122. {Id. at PagelD # 147.) She made either a master key or duplicate key1
and walked back to Powell’s room with the officers. Zita knocked on the door, announced herself,
and, after receiving no response, used her key to enter the room. The officers stepped into the
room with Zita to conduct a protective sweep. As soon as it was clear no one was present, the
officers stepped back out to the threshold of the room, holding the door open. The officers
remained in the doorway of the room to ensure that the occupants didn’t return and harm Zita.
Zita, however, stayed inside the room. With no prompting from the officers, Zita began to
go through her “pattern” and “automated process” of inspecting the room. {Id. at 184-85.) This
included looking inside drawers and the room’s refrigerator. Zita conducted this inspection
because, after she smelled marijuana, she was looking for evidence to charge the guest a fee for

The testimony of Officer Johnson and Eugene Zita makes it unclear if Zita used a master or
duplicate key to enter Powell’s room. But the district court, in its opinion and order denying
Powell’s motion to suppress, stated that Zita produced a master key to get inside the room.
2

(3 of 15)

Case: 19-6461

Document: 30-2

Filed: 12/02/2020

Page: 3

Case No. 19-6461, United States v. Powell
smoking inside. Her intention, according to her testimony, wasn’t to find evidence of smoking to
turn over to the police, but only to support the charge for smoking.
During her inspection, Zita opened the room’s refrigerator. Inside, she saw a “brown, kind
of squarish” package inside a black bag. (Id. at PagelD # 182, 195.) She then asked the officers,
“Can I take it out?”, and both told her she could. (Id. at PagelD # 208.) The officers didn’t tell
Zita to search anything or open the refrigerator, and Zita testified that it was her decision to open
the refrigerator. But she also testified that if the officers told her to leave the package inside the
refrigerator, she would’ve, and that she “gave [the officers] the decision” of whether to take the
package out. (Id. at PagelD # 209, 216.) Officer Johnson, on the other hand, testified that he “was
trying to leave it to [Zita’s] discretion” whether to take the package out of the refrigerator. (Id. at
PagelD# 151.)
Either way, Zita pulled the bag out of the refrigerator and began to walk toward the officers,
and Officer Hogan walked toward her to inspect it. Hogan took the package, then, recognizing the
contents as containing fentanyl, placed it on a table. Zita continued her search, discovering various
other pieces of contraband and evidence of drug trafficking. Eventually, she called Powell and
told him that he needed to return to his room because a pipe had burst. When Powell arrived,
police arrested him.
B.
Based on the evidence discovered in Powell’s hotel room, the government charged Powell
with various drug offenses, including possession with intent to distribute fentanyl. Powell moved
to suppress the evidence from the Microtel, arguing that the search violated the Fourth
Amendment. He argued that Zita acted as the government’s agent when she searched his room,
so she needed a warrant before doing so. And he also argued that he retained an expectation of

3

(4 of 15)

Case: 19-6461

Document; 30-2

Filed: 12/02/2020

Page: 4

Case No. 19-6461, United States v. Powell
privacy in the room until well after Zita discovered the drugs in the refrigerator. The district court
denied the motion to suppress, finding that Zita was not the government’s agent and that Powell
lacked standing to challenge the search because the Microtel evicted Powell before Zita discovered
the drugs. The eviction destroyed Powell’s expectation of privacy in the room, so he lacked
standing to challenge the search.
Powell then pled guilty to Count 2 of a Second Superseding Indictment—possession with
intent to distribute 40 grams or more of a substance containing a detectable amount of fentanyl.
He reserved the right to appeal whether he had a reasonable expectation of privacy in his hotel
room.
Before sentencing, Powell’s presentence investigation report revealed that he had multiple
convictions for delivery/manufacture of heroin or cocaine in violation of Mich. Comp. Laws §
333.7401. So the report classified Powell as a career offender under § 4B1.1 of the Federal
Sentencing Guidelines because Powell’s Michigan convictions qualified as controlled substance
offenses. Powell objected to that classification, but the district court overruled him and applied
the career-offender sentence enhancement. Powell’s guideline sentence range was, as a result of
the enhancement, 188 to 235 months, and the district court imposed a 210-month sentence.
Powell now appeals the district court’s denial of his motion to suppress the evidence from
the Microtel. He also appeals his sentence, arguing that the district court erred in classifying him
as a career offender. We affirm in both respects.
II.
In reviewing the district court’s denial of Powell’s motion to suppress, we review the
district court’s factual findings for clear error and its legal conclusions de novo. United States v.
Graham, 275 F.3d 490, 509 (6th Cir. 2001). “A factual finding will only be clearly erroneous

4

(5 of 15)

Case: 19-6461

Document: 30-2

Filed: 12/02/2020

Page: 5

Case No. 19-6461, United States v. Powell
when, although there may be evidence to support it, the reviewing court on the entire evidence is
left with the definite and firm conviction that a mistake has been committed.” United States v.
Adams, 583 F.3d 457, 463 (6th Cir. 2009) (quoting United States v. Navarro-Camacho, 186 F.3d
701, 706 (6th Cir. 1999)). We consider the evidence in the light most favorable to the government
and most likely to support the district court’s decision. United States v. Pearce, 531 F.3d 374, 379
(6th Cir. 2008); Navarro-Camacho, 186 F.3d at 705. If the district court’s “conclusion can be
justified for any reason,” we will affirm the denial of the suppression motion. United States v.
Pasquarille, 20 F.3d 682, 685 (6th Cir. 1994).
On the other hand, a district court’s determination that a prior offense qualifies as a
controlled substance offense is a legal determination that we review de novo. United States v.
Garth, 965 F.3d 493, 495 (6th Cir. 2020).
A.
We begin with the suppression motion. Powell argues that police searched his hotel room
in violation of the Fourth Amendment. To win on this argument, Powell must establish two things:
first, that Zita was the government’s agent when she searched his room, and second, that the
Microtel hadn’t evicted him yet, preserving his reasonable expectation of privacy in the room.
Because Powell can’t pass the first hurdle, we need not reach the eviction issue.
“[T]he Fourth Amendment proscribes only governmental action.”

United States v.

Lambert, 111 F.2d 83, 89 (6th Cir. 1985). So it doesn’t apply to a search or seizure—even an
unreasonable one—conducted “by a private individual not acting as an agent of the government or
with the participation or knowledge of any governmental official.” Id.-, see United States v.
Jacobsen, 466 U.S. 109, 113 (1984). And when a person delivers evidence to police that he found

5

(6 of 15)

Case: 19-6461

Document: 30-2

Filed: 12/02/2020

Page: 6

Case No. 19-6461, United States v. Powell
during a private search, it’s not excludable just because he obtained it without a warrant. United
States v. Clutter, 914 F.2d 775, 778 (6th Cir. 1990).
We’ve developed a two-part test for determining when a “private” person acts as the
government’s agent. First, the police must instigate, encourage, or participate in the search.
Lambert, 111 F.2d at 89. And second, the individual must “engage[] in the search with the intent
of assisting the police in their investigative efforts.” Id. The defendant must establish both prongs
before the Fourth Amendment applies.
Whether a person acts as an agent of the government “necessarily turns on the degree of
the Government’s participation in the private party’s activities.” Skinner v. Ry. Lab. Execs’ Ass 'n,
489 U.S. 602, 614 (1989). But some bare level of contact between the person and the police isn’t
enough. “A person will not be acting as a police agent merely because there was some antecedent
contact between that person and the police.” Lambert, 771 F.2d at 89. Likewise, where the intent
of the party conducting the search “A entirely independent of the government’s intent to collect
evidence for use in a criminal prosecution,” the party isn’t the government’s agent. United States
v. Hardin, 539 F.3d 404, 418 (6th Cir. 2008) (emphasis in original) (quotations omitted). And
“there is no seizure within the meaning of the fourth amendment when an object discovered in a
private search is voluntarily relinquished to the government.” United States v. Coleman, 628 F.2d
961,966 (6th Cir. 1980).
Zita wasn’t the government’s agent when she searched Powell’s room. Indeed, Powell
cannot show that her actions meet either prong of the Lambert test. To see why, consider a case
in which we found agency: United States v. Hardin, 539 F.3d at 404. Hardin had an active warrant
for his arrest, and police received a tip that he was staying in an apartment. 539 F.3d at 407. So
they approached the apartment manager and asked him to enter the apartment to see if Hardin was

6

(7 of 15)

Case: 19-6461

Document: 30-2

Filed: 12/02/2020

Page: 7

(8 of 15)

Case No. 19-6461, United States v. Powell
there. Id. The police devised a ruse—which was “without a doubt” their idea—where the manager
would pretend to check for a water leak. Id. When the manager completed the ruse and confirmed
Hardin’s presence, police entered the apartment without a warrant and arrested Hardin. Id. at 408.
They also recovered drugs, cash, and several firearms. Id.
Hardin moved to suppress this evidence, but the district court denied the motion. Id. at
408-09. We reversed. Id. at 420. We noted that the ruse was the design of the government
(Lambert prong one), the police asked the manager to enter the apartment (also prong one), and
the manager had no reason to enter the apartment independent of his intent to assist the police
(prong two). Id. at 419. So “the manager was acting as an agent of the government” when he
entered the apartment. Id. at 420.
But the facts we relied on in Hardin to find agency are missing here. Unlike in Hardin,
Zita’s reason for entering Powell’s room didn’t come from the government. Indeed, Zita decided
on her own to evict Powell. And neither did the police ask Zita to conduct the search, like they
did the apartment manager in Hardin. Instead, they accompanied her to Powell’s room to ensure
her safety and then withdrew to the doorway when it was clear Powell wasn’t there. So evidence
showing police instigation and participation—the first Lambert prong—is absent here.

And

besides, evidence establishing the second prong is also missing. Zita was going through her
habitual and “automated” process of inspecting Powell’s room and looking for evidence to charge
him a fee for smoking. So, unlike the apartment manager in Hardin, she had a reason to search
his room independent of her intent to assist the police in a criminal investigation.
Now consider some cases in which we found agency lacking. Start with United States v.
Howard, 752 F.2d 220 (6th Cir.), opinion vacated on other grounds, 770 F.2d 57 (6th Cir. 1985)
(en banc). After the Howard residence burned down, both police and the homeowners’ insurance

7

Case: 19-6461

Document: 30-2

Filed: 12/02/2020

Page: 8

Case No. 19-6461, United States v. Powell
company investigated the remains for arson. Id. at 227. Although the insurance investigator could
enter the property under the insurance contract, the police had neither a warrant nor the Howards’
consent. Id. So when the government eventually prosecuted Howard and others for crimes related
to the house fire, the district court wouldn’t allow it to introduce testimony from the investigating
officer, which the court viewed as fruit of an unlawful search. Id. The district court did, however,
allow the insurance investigator to testify. Id.
The defendants appealed the introduction of that testimony. Id. They argued that the
investigator was the government’s agent. Id. We disagreed—even though “there is no question
that the government had knowledge of, and even participated in the search.” Id. In other words,
there was no question that the defendants satisfied the first Lambert prong, but they faltered on the
second. That’s because the knowledge and participation of the police alone weren’t enough.
Instead, where “the intent of the private party conducting the search is entirely independentof the
government’s intent to collect evidence for use in a criminal prosecution, ... the private party is
not an agent of the government.” Id. And “when police are merely assisting a private party, who
has authority to search and a legitimate need to do so, . . . courts are reluctant to exclude resulting
evidence.” Id. at 227-28 (alteration in original) (quoting United States v. Capra, 501 F.2d 267,
272 n.4 (2d Cir. 1974), cert, denied, 420 U.S. 990 (1975)). So the investigator was lawfully on
the property, and his actions weren’t attributable to the government. Id. at 228.
There are important similarities—and equally important distinctions—between the search
in Howard and the search here. Like Howard, the police were present when the search happened.
But that was hardly dispositive in Howard because that only goes to the first Lambert prong.
Besides, it’s hardly clear police “participated” in Zita’s search here like they did in the search in
Howard. Indeed, unlike Howard, the police weren’t in Powell’s room to investigate anything or

8

(9 of 15)

Case: 19-6461

Document: 30-2

Filed: 12/02/2020

Page: 9

(10 of 15)

Case No. 19-6461, United States v. Powell
gather evidence for prosecution. See Lambert, 111 F.2d at 89 (“First, the police must have
instigated, encouraged or participated in the search.”). They were just there to protect Zita if
anything went south during Powell’s eviction. At any rate, like the defendants in Howard, Powell
can’t satisfy the second Lambert prong. Just as the insurance investigator had his own reason to
search the Howards’ house, distinct from the government’s, Zita’s reason for searching the room
was to gather evidence for a smoking charge. That’s independent of any law enforcement purpose.
The officers were, in other words, “merely assisting” Zita in a passive, unengaged way, unrelated
to an investigatory intent. Howard, 752 F.2d at 227.
Next, consider United States v. Bruce, 396 F.3d 697 (6th Cir.), vacated in part on reh ’g on
other grounds, 405 F.3d 1034 (6th Cir. 2005). Bruce checked into a hotel and paid for a week’s
worth of lodging. 396 F.3d at 702. But a few days later, the hotel manager called the police to
report the smell of burning marijuana coming from either Bruce’s or his companions’ room. Id.
The police asked the hotel to save, secure, and mark the trash bags from those rooms—and hotel
employees were eligible for a cash reward for their assistance. Id.; id. n.2. After discovering
contraband in the trash, the police obtained search warrants for the rooms and arrested Bruce. Id.
at 703-04. Bruce unsuccessfully moved to suppress the evidence from the rooms and then
appealed after entering a guilty plea. Id. at 704.
We held that the hotel’s handling of Bruce’s trash didn’t violate the Fourth Amendment,
id. at 705, because neither of the Lambert prongs was met. Id. at 706. For one thing, “[tjhere
[wa]s no evidence that the staff were asked to look around the rooms, report any suspicious items,
or otherwise deviate from their typical cleaning routine.” Id. For another, “hotel employees
initiated contact with the police, and not vice versa, based on their detection of an apparent
marijuana smell emanating from” Bruce’s room. Id. And even though the government provided

9

Case: 19-6461

Document: 30-2

Filed: 12/02/2020

Page: 10

(11 of 15)

Case No. 19-6461, United States v. Powell
a financial incentive to the employees to assist them, that still wasn’t enough to make them the
government’s agents. Id. That’s because “they undoubtedly had the distinct and independent
intent—and, indeed, the obligation—to clean these rooms and empty their trash, just as they would
do with any other room in the hotel.” Id. So the employees didn’t become government agents just
“because the police took an interest in the items they planned to remove from the room during
their normal cleaning activities.” Id.
If the employees in Bruce weren’t government agents, then Zita wasn’t, either. The police
were more actively involved in directing hotel staff in Bruce—and the staff were more focused on
assisting a police investigation—than here. The police in Bruce told the employees what to do and
how to do it. Here, though, they passively stood by for protection as Zita searched the room. The
only evidence that Powell points to as showing agency is the ambiguous interaction between Zita
and the officers just after Zita opened the refrigerator and noticed Powell’s contraband.
But if obeying police direction in sorting trash—and expecting a reward for that
assistance—doesn’t make a person the government’s agent, then neither does asking officers “Can
I take it out?” after discovering a package of drugs and waiting for a response. Besides,
cooperation between Zita and the officers—if this can even be called that—doesn’t necessarily
mean that Zita became the government’s agent. See Howard, 752 F.2d at 227 (“We find, however,
that the insurance company investigator while cooperating with the police was not acting as an
agent of the government.”). That’s because agency requires more. It requires both that police
participate in the search and that the private party intend to assist law enforcement. Lambert,
III F.2d at 89. So even if this ambiguous interaction between Zita and the police could amount
to police “instigation” or “participation,” Powell still needs to show that Zita intended to assist a
police investigation. And he fails to do so.

10

Case: 19-6461

Document: 30-2

Filed; 12/02/2020

Page: 11

Case No. 19-6461, United States v. Powell
At any rate, we doubt the interaction rose to the level of police participation. Bruce,
396 F.3d at 706. Officers Johnson and Hogan didn’t ask Zita to “look around the room[], report
any suspicious items, or otherwise deviate from [her] typical cleaning routine.” Id. Instead, Zita
“initiated contact with the police, and not vice versa, based on [her] detection of an apparent
marijuana smell emanating from” Powell’s room. Id. And even assuming the moment at the
refrigerator satisfies the first Lambert prong (which we doubt), Zita still “undoubtedly had the
distinct and independent intent—and, indeed, the obligation—to clean” Powell’s room out. Id.
So Zita’s search meets neither of the Lambert prongs. And none of Powell’s other
arguments to the contrary is persuasive. Powell states: “All along, Zita was ready to assist police.”
(Appellant Br. at 25.) But the record doesn’t support this argument—she wasn’t there to assist
police, but police were there to protect her during an eviction. And it can hardly be said that Zita
was more “ready to assist police” than the employees in Bruce, whom the government paid for
their assistance. Bruce, 396 F.3d at 702 n.2. Besides, Zita “had the distinct and independent
intent” and obligation to clear Powell’s room out and find evidence to charge him a smoking fee.
Id. at 706; see id. (“[W]hatever motive or incentive the hotel employees might have had to assist
the police in detecting unlawful activity ... they undoubtedly had the distinct and independent
intent—and, indeed, the obligation—to clean these rooms and empty their trash, just as they would
do with any other room in the hotel.”).
Powell also argues that Zita was “looking for evidence of illegal activity.” (Appellant Br.
at 26 (quotations omitted).) Maybe so, but that’s not what matters. The court looks at Zita’s intent
when she conducted the search. Lambert, 111 F.2d at 89. And her intent wasn’t to assist an

11

(12 of 15)

Case: 19-6461

Document: 30-2

Filed: 12/02/2020

Page: 12

(13 of 15)

Case No. 19-6461, United States v. Powell
investigation, but to obtain evidence to further support her decision to evict Powell and charge him
a smoking fee.2
Next, Powell relies on the fact that Johnson and Hogan “stood inside” while Zita went
through Powell’s room, speaking with them all the while. (Appellant’s Br. at 24.) But “when
police are merely assisting a private party, who has authority to search and a legitimate need to do
so,... courts are reluctant to exclude resulting evidence.” Howard, 752 F.2d at 227-28 (alteration
in original) (quoting Capra, 501 F.2d at 272 n.4). And mere cooperation between the parties, by
itself, isn’t enough to establish agency. Id. at 227.
Powell fails to shoulder his burden of showing that Zita’s actions meet the Lambert
standard. So we don’t need to reach the issue of whether Powell had a reasonable expectation of
privacy in his hotel room at the time of the search. The Fourth Amendment doesn’t apply to Zita’s
search. We thus affirm the district court’s denial of Powell’s suppression motion.
B.
Powell also challenges his designation as a career offender, although he acknowledged at
oral argument that recent circuit precedent forecloses his challenge.

Powell’s presentence

investigation report found, and the district court agreed, that Powell’s convictions under Mich.
Comp. Laws § 333.7401(2)(a)(iv) were controlled substance offenses. That qualified him for a
career offender sentencing enhancement. Powell objects, and we review his claim de novo. See
United States v. Garth, 965 F.3d 493, 495 (6th Cir. 2020).
Under the Federal Sentencing Guidelines, a career offender has “at least two prior felony
convictions of either a crime of violence or a controlled substance offense.” U.S.S.G. § 4Bl.l(a).

2 Powell also argues that Zita would have no reason to look for evidence of illegal activity unless
she intended to assist the police. This is wrong. Zita testified that she was searching the room to
find evidence of smoking so she could charge Powell a fee.
12

Case: 19-6461

Document: 30-2

Filed: 12/02/2020

Page: 13

Case No. 19-6461, United States v. Powell
The Guidelines in turn define a “controlled substance offense” as one that, under state or federal
law, is punishable with a prison term of more than a year and prohibits the manufacture, import,
distribution, or dispensing of a controlled substance, or possession of a controlled substance with
intent to perform any of these acts. Id. § 4B 1.2(b). This tracks the Federal Controlled Substances
Act, which makes it unlawful to “manufacture, distribute, or dispense” certain drugs. 21 U.S.C.
§ 841(a)(1). And “distribute” in the CSA means “delivery”: the “actual, constructive, or attempted
transfer” of drugs. Id. § 802(8), (11).
A person with multiple controlled-substance offenses faces an increased prison term as a
career offender. Garth, 965 F.3d at 495. So when the probation officer and later the district court
designated Powell a career offender, it caused his offense level under the Sentencing Guidelines
to jump from 26 to 34—which bumped up his sentence range. That designation hinged on Powell’s
multiple convictions

for violating Mich.

Comp.

Laws

§

333.7401—in particular,

delivery/manufacture of cocaine and heroin. Section 333.7401(1) states: “a person shall not
manufacture, create, deliver, or possess with intent to manufacture, create, or deliver a controlled
substance.”
Normally, to determine whether a statute is a “controlled substance offense” that triggers
the career offender enhancement, we use what’s known as the categorical or modified categorical
approach. Garth, 965 F.3d at 495. But we don’t need to perform that complicated analysis here.
We’ve already held that Powell’s violation of § 333.7401 is a controlled substance offense. United
States v. Thomas, 969 F.3d 583, 584 (6th Cir. 2020) (per curiam) (holding that delivery of heroin
in violation of § 333.7401 is a controlled substance offense); see also United States v. House,

13

(14 of 15)

Case: 19-6461

Document: 30-2

Filed: 12/02/2020

Page: 14

Case No. 19-6461, United States v. Powell
872 F.3d 748, 753-54 (6th Cir. 2017).3 And we’ve said the same about other states’ statutes with
language virtually identical to our Michigan statute. See Garth, 965 F.3d at 496.
Still, after United States v. Havis, 927 F.3d 382 (6th Cir. 2019) (en banc) (per curiam),
there appears to be some confusion about this in lower courts. Compare United States v. Tillman,
No. l:07-cv-197, 2020 WL 1950835, at *3 (W.D. Mich. Apr. 23, 2020) (holding that previous
convictions under § 333.740l(2)(a)(iv) were controlled substance violations) with United States v.
McDougle, No. 19-20323, 2020 WL 3639589, at *1 (E.D. Mich. July 6, 2020) (holding that the
defendant’s prior conviction under § 333.7401 “does not qualify as a controlled substance offense
under the federal sentencing Guidelines”). To be clear, under a plain reading of the relevant
statutory language and our precedent, Powell’s convictions for violating § 333.7401 are controlled
substance offenses under § 4Bl.l(a) and 4B 1.2(b) of the Sentencing Guidelines.
The district court didn’t err in designating Powell a career offender. We affirm.
III.
For these reasons, we affirm both the district court’s denial of Powell’s motion to suppress
and its designation of Powell as a career offender.

3 See also United States v. Williams, 762 F. App’x 278, 280-82 (6th Cir. 2019); United States v.
Pittman, 736 F. App’x 551, 555 (6th Cir. 2018); United States v. BroM>n, 727 F. App’x 126, 129
(6th Cir. 2018); United States v. Tibbs, 685 F. App’x 456, 463-64 (6th Cir. 2017); Hopkins v.
United States, No. 17-1599,2017 WL 9477084, at *2 (6th Cir. Nov. 2, 2017) (order); United States
v. Solomon, 592 F. App’x 359, 361-62 (6th Cir. 2014).
14

(15 of 15)

UNITED STATES OF AMERICA, Plaintiff, v. WALTER EUGENE POWELL. Defendant.
UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF KENTUCKY. CENTRAL
DIVISION
2019 U.S. Dist. LEXIS 112678
Criminal Action No. 5:19-CR-69-DCR-MAS-1
June 21, 2019, Decided
June 21, 2019, Filed
Editorial Information: Subsequent History
Adopted by, Motion denied by United States v. PowelfT2019 U.S. Dist. LEXIS 113262 (E.D. Ky., July 8,
2019)Motion denied by United States v. Powell. 2019 U.S. Dist. LEXIS 143415 (E.D. Ky., Aug. 23,
2019)Objection overruled by United States v. Powell. 2019 U.S. Dist. LEXIS 209932 (E.D. Ky., Dec. 5,
2019)
{2019 U.S. Dist. LEXIS 1}For Walter Eugene Powell. Defendant:
Jeffrey A. Darling, LEAD ATTORNEY, Nichols Walter PLLC, Lexington, KY.
For Elisha Demitrius Wilson, Defendant: Andrew M. Stephens,
LEAD ATTORNEY, Lexington, KY.
For USA, Plaintiff: David C. Kiebler, LEAD ATTORNEY, U.S.
Attorney's Office, EDKY, Lexington, KY.
Judges: Matthew A. Stinnett, United States Magistrate Judge.
Counsel

Opinion
Opinion by:

Matthew A. Stinnett
Opinion

REPORT AND RECOMMENDATION
This case is before the Court on Defendant's Motion to Suppress. [DE 24], The district judge referred
this matter to the undersigned for a Report and Recommendation. The United States responded to
the Motion [DE 33] and the Court held a hearing at which the parties presented witnesses and
arguments to the Court. [DE 37], At the hearing, the Court requested the parties submit additional
briefing on the issue of the expectation of privacy in a hotel room vis-'-vis an eviction and search at
a hotel. The parties both submitted supplemental briefs. [DEs 39 and 40]. The matter is ripe for
decision. For the reasons stated herein, the Court recommends the District Court deny Defendant's
Motion to Suppress.
I. FACTUAL BACKGROUND
On January 29, 2019, Eugene Zita ("Zita"), an employee at the Microtel Inn in Lexington,{2019 U.S.
Dist. LEXIS 2} Kentucky, received complaints and concerns from guests and employees
concerning smoke and suspected marijuana smells emanating from hotel room #122. Because
smoking was prohibited in a guest's room, Zita chose to evict the guest, Defendant Walter Powell
("Powell"). Zita contacted the Lexington Police Department for assistance and protection in the
eviction process. [DE 41, Tr. at 7 and 47],

lyfcases

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

22609032

When Officers Paul Hogan and Christopher Johnson of the Lexington Police Department arrived at
the hotel, Zita was busy with other customers. Zita, however, directed the officers to room #122 while
managed the customers. [DE 41, Tr. at 7-8]. The officers knocked on the hotel room door but
received no answer. [DE 41, Tr. at 8].
Officers Hogan and Johnson then returned to the ffont desk where Zita had taken care of the
customers. Zita then led the officers back to room #122 with the master key. [DE 41, Tr. at 9-10]. Ms.
Zita knocked on the door and identified herself as a hotel management. [DE 33, Ex. 2, Body Camera
Footage ("Body Cam 2") at 0:40], There was still no answer. Zita used a master key to open the hotel
room door. [Id. at 0:50]. The officers conducted a "protective sweep" of the hotel room{2019 U.S.
Dist. LEXIS 3} and determined there were no occupants. [DE 41, Tr. at 12]. The officers then
immediately receded to the entrance of the hotel room while Zita began gathering the belongings of
the guests to remove them from the room.
As Zita moved around the room, she opened the small refrigerator. Inside, Zita found a bag
containing individual packages of white powder. She asked the officers, "Do you smell it? There's
something in the fridge. Can you look? Or can I take it out?" [Body Cam 2 at 1:20-34], One officer
stated, "you can," while the other responded, "you can take it out." [Body Cam 2 at 1:35], Zita
removed the bag from the refrigerator and handed it to Officer Hogan. [Body Cam 2 at 1:42-47].
Officer Hogan looked at the open black bag, which contained many small baggies filled with white
powder. [Id.]. He immediately identified the contents of the black bag as possible narcotics. [DE 41,
Tr. at 44-45], He then put the bag down and stepped out of the hotel room to make a telephone call.
[DE 41, Tr. at 30].
Zita continued gathering the items in the room, including scales in the desk drawer. Zita also
gathered trash in her effort to clean the room, but the officers then intervened and asked{2019 U.S.
Dist. LEXIS 4} her to leave everything where it was because they were "freezing" the scene until a
search warrant for the room could be procured. [DE 33, Ex. 1, Body Camera Footage ("Body Cam
1") at 4:02-15].
The officers eventually obtained a search warrant from Fayette District Court for the room and a
vehicle parked outside the Microtel and registered to Powell. The evidence found by Zita directly led
to the Indictment in this case. Powell now moves the Court to suppress all the evidence seized from
the search of the hotel room.
II. ANALYSIS
A. There Was No Fourth Amendment Protection
Courts have long held that a hotel guest has some expectation of privacy in the room he or she
occupies. ”[W]hen a person engages a hotel room he undoubtedly gives 'implied or express
permission' to 'such persons as maids, janitors or repairmen' to enter his room 'in the performance of
their duties.'" Stonerv. State of Cal., 376 U.S. 483, 489, 84 S. Ct. 889, 11 L. Ed. 2d 856 (1964)
(quoting United States v. Jeffers, 342 U.S. 48, 52, 72 S. Ct. 93, 96 L. Ed. 59 (1951)). "To have
standing to challenge the search of a hotel room, the guest must show (1) that he had 'an actual
(subjective) expectation of privacy' in the room and (2) that this expectation was 'one that society is
prepared to recognize as "reasonable."'" United States v. Lanier, 636 F.3d 228, 231 (6th Cir. 2011)
(quoting Smith v. Md., 442 U.S. 735, 740, 99 S. Ct. 2577, 61 L. Ed. 2d 220 (1979)). The issue before
the Court is whether Powell had an expectation{2019 U.S. Dist. LEXIS 5} of privacy in his hotel
room when Zita, accompanied by police officers, sought to evict him from his room.
The Sixth Circuit Court of Appeals addressed this same issue in United States v. Allen, 106 F.3d 695

lyfcases

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

22609032

(6th Cir. 1997). There, a motel manager believed the room's occupant, Allen, had vacated the room
without paying the bill. The manager entered the room with the intent of determining whether it was
still occupied after receiving no answer to her phone calls and knocks at the door. When the
manager entered the room, she discovered illegal drugs openly displayed in the room.
Upon learning that Allen was keeping contraband within the motel, the motel manager locked
Allen out of his room. With this action, the motel manager divested Allen of his status as an
occupant of the room, and concomitantly terminated his privacy interest in its contents. Once the
manager, through private action, took possession of the motel room, Allen could no longer assert
a legitimate privacy interest in its contents./d. at 699.
The result from the Sixth Circuit was the same in United States v. Spicer, 549 F. App'x. 373, 376 (6th
Cir. 2013). Like in Allen,
a hotel employee entered Spicer's room for housekeeping purposes, believing the room to be
vacant. The employee observed marijuana and smelled marijuana smoke. She then
summoned{2019 U.S. Dist. LEXIS 6} her supervisor who discovered cocaine in a backpack left
in the room. The presence of illegal drugs in the room gave the Marriott cause to lawfully
terminate Spicer's occupancy of the room. The hotel's general manager took affirmative steps to
repossess the room and assert dominion and control over it. The hotel manager then validly
consented to the search of the hotel room.Spicer, 549 F. App'x. at 377 (footnote omitted).
Turning back to the current case, there is no dispute that Zita's action and intent was the eviction of
Powell no matter what was found in his room. [DE 41, Tr. at 72-75], Once Zita used her master key
to enter Powell's room to effectuate the eviction, Pjowell could no longer assert a legitimate privacy
interest in its contents. Id. ("Once a hotel guest's rental period has expired or been lawfully
terminated, the guest does not have a legitimate expectation of privacy in the hotel room.") (citing
United States v. Rahme, 813 F.2d 31, 34 (2d Cir. 1987)). Rather, Zita had regained possession of
the room and was merely performing the duties of a hotel employee required to evict guests who do
not abide by the rules of the hotel. Id. at 376 ("A hotel may lawfully terminate a guest's occupancy for
unauthorized activity."). Zita could even provide consent to a warrantless{2019 U.S. Dist. LEXIS 7}
search of the room at that point if she was so inclined. 1 See id. at 699. In short, Powell lacks
standing to challenge a search of the hotel room after Zita entered and took possession of it.
Accordingly, the Court recommends the District Court deny Powell's motion to suppress the evidence
found in the hotel room.
III. CONCLUSION
For reasons stated herein, the Court RECOMMENDS that the District Court DENY the Motion to
Suppress [DE 24], The Court directs the parties to 28 U.S.C. § 636(b)(1) for appeal rights concerning
this recommendation, issued under subsection (B) of said statute. As defined by § 636(b) (1), Fed. R.
Crim. P. 59(b), and local rule, within fourteen days after being served with a copy of this
recommended decision, any party may serve and file written objections to any or all portions for
consideration, de novo,{2019 U.S. Dist. LEXIS 8} by the District Court.
Entered this 21st day of June, 2019.
Isl Matthew A. Stinnett
United States Magistrate Judge

.
Footnotes

lyfcases

3

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

22609032

1
Although the Court is of the opinion Powell does not have standing to challenge the search warrant,
the Court believes there was not an actual search of Powell's hotel room. The body cam footage
clearly demonstrates that the police officers entered the room for approximately 20 seconds to
conduct a "protective sweep," during which time they did not touch anything. [Body Cam 2 at
1:00-20]. After they determined there was no one present in the room, the officers stood at or near
the doorway while Zita, in her role as a hotel employee, gathered items strewn about the room. [Body
Cam 2 at 1:47; Body Cam 1 at 2:15-3:47] [DE 41, Tr. at 14]. Zita testified there was "nothing
different" about the way she began cleaning and inspecting room #122 from the "automatic" way she
cleans and inspects every room in the hotel. [DE 41, Tr. at 59-60, 73]. Both Body Cams show that
she did not ask the police officers to search the room after the protective sweep, nor did they request
that she search the room. Even though the Sixth Circuit allows "a hotel employee with hotel
given-authority [to] consent to a search of the guest's former room" once the guest's tenancy is
terminated, the facts here do not support that this circumstance even went so far as a search. United
States v. Spicer, 549 F. App'x 373, 376 (6th Cir. 2013). Instead, the fact that Zita found narcotics in
the refrigerator was completely incidental to the eviction.

lyfcases

4

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

22609032

UNITED STATES OF AMERICA, Plaintiff, v. WALTER EUGENE POWELL. Defendant.
UNITED STATES DISTRICT COURT FOR THE EASTERN DISTRICT OF KENTUCKY. CENTRAL
DIVISION
2019 U.S. Dist. LEXIS 113262
Criminal Action No. 5: 19-069-DCR
July 8, 2019, Decided
July 8, 2019, Filed
Editorial Information: Prior History
United States v. Powell. 2019 U.S. Dist. LEXIS 112678 (E.D. Ky., June 21, 2019)
{2019 U.S. Dist. LEXIS 1}For Walter Eugene Powell. Defendant:
Jeffrey A. Darling, LEAD ATTORNEY, Nichols Walter PLLC, Lexington, KY.
For Elisha Demitrius Wilson, Defendant: Andrew M. Stephens,
LEAD ATTORNEY, Lexington, KY.
For USA, Plaintiff: David C. Kiebler, LEAD ATTORNEY, U.S.
Attorney's Office, EDKY, Lexington, KY.
Judges: Danny C. Reeves, United States District Judge.
Counsel

Opinion
Opinion by:

Danny C. Reeves
Opinion

MEMORANDUM OPINION AND ORDER
Defendant Walter Powell is charged with conspiring to possess with intent to distribute fentanyl and
cocaine base and possessing with intent to distribute fentanyl and cocaine base. [Record No. 29]
Powell filed a motion to suppress evidence seized from a room at the Microtel Inn in Lexington,
Kentucky, which led to these charges. [Record No. 24] The motion was referred to United States
Magistrate Judge Matthew A. Stinnett for issuance of a Report and Recommendation pursuant to 28
U.S.C. § 636(b)(1)(B). Magistrate Judge Stinnett conducted an evidentiary hearing and issued a
Report and Recommendation on June 21, 2019, concluding that the Court should deny the
defendant's motion. [Record No. 42] Thereafter, Powell filed objections to the Report and
Recommendation. [Record No. 43]
/

■

After careful review of the matter, the Court concludes{2019 U.S. Dist. LEXIS 2} that the motion to
suppress should be denied.
I.
On January 25, 2019, a Microtel laundry worker complained to assistant manager Eugene Zita
regarding the odor of marijuana coming from room #122. [Record No. 41, p. 47] Zita checked the
hallway and observed an "extremely strong" odor of marijuana outside of room #122. Microtel has a
strict non-smoking policy, so Zita elected to evict the occupant. Id. at p. 49. She knocked on the
door, but no one answered. Id. at p. 47. Noting that the smell of marijuana was "very strong" and
fearing there might be dangerous individuals inside, Zita decided to call the Lexington Police

lyfcases

1

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

22609032

Department for assistance with the eviction. Id.
Lexington Police Officers Johnson and Hogan arrived at the Microtel and contacted Zita, who was
busy with customers at the front desk. Id. at p. 7. Zita pointed the officers toward room #122. The
officers arrived at the room and knocked, but there-was no response. Id. at p. 8. When officers
returned to the front desk, Zita advised that she wanted to evict the occupant of room #122. Id. at p.
9. Zita produced a master key and she and the officers returned to the room.
After knocking and announcing herself as hotel staff, Zita opened the door using the master key. Id.
at pp. 10, 53. Officers Johnson{2019 U.S. Dist. LEXIS 3} and Hogan performed a brief protective
sweep of the room and, after confirming that no one was present, stepped back into the hallway. The
officers remained in the hall or doorway while Zita began clearing out the occupant's belongings. Zita
explained that she needed evidence of smoking in the room so that Microtel could assess a $250.00
penalty. Id. at pp. 48, 51-52.
Zita opened the refrigerator during her inspection of the room and found a container inside. Id. p. 58.
She apparently saw or suspected that it contained contraband because she asked the officers: "Can
you look or can I take it out?" Id. at p. 57. The officers, still standing in the doorway of the room,
advised Zita that she could take it out. Id. at pp. 13, 70. Zita removed the container from the
refrigerator and gave it to the officers. Id. at p. 71. It contained a powdery substance which,
according to Officer Johnson, tested positive for fentanyl and cocaine base. Id. at p. 15. Defendant
Powell was arrested when he returned to the Microtel later that day.
c
II.
The magistrate judge determined that Powell does not have standing to challenge the alleged*
search because he had been evicted. As he noted, a hotel guest does not have a legitimate
expectation of privacy in his room once his rental period has{2019 U.S. Dist. LEXIS 4} been lawfully
terminated. [Record No. 42, p. 4 (United States v. Spicer, 549 F. App'x 373, 377 (6th Cir. 2013))].
But Powell maintains that he has standing to challenge the "search" because he was never evicted.
"A hotel may lawfully terminate a guest's occupancy for unauthorized activity, including possession
of illegal drugs." Spicer, 549 F. App'x at 376. See also Raider v. Dixie Inn, 198 Ky. 152, 248 S.W.
229, 229-230 (Ky. 1923) (innkeeper may exclude individuals whose conduct annoys or endangers
others). Powell suggests that he had not been evicted because he had not been advised of the
hotel's decision. However, "[a] hotel terminates a guest's occupancy by taking justifiable affirmative
steps to repossess [a] room ... and to assert dominion and control over it." Spicer, 549 F. App'x at
376.
Powell relies on the non-binding decisions in United States v. Young, 573 F.3d 711 (9th Cir. 2009),
and United States v. Bautista, 362 F.3d 584, 590 (9th Cir. 2004), in opposing the magistrate judge's
conclusion. But these cases do not help Powell, as they are factually dissimilar to the instant case
and affirm that hotel guests do not have a reasonable expectation of privacy once their occupancy
has been lawfully terminated. In Young, hotel security staff entered the defendant's room while he
was not present to investigate a theft complaint. Once inside, they found a firearm and checkbooks
belonging to others. Security staff then placed Young's room on "electronic lockout" so that{2019
U.S. Dist. LEXIS 5} he could not re-enter the room. Staff members informed a police officer of their
suspicions, and the officer detained Young on the hotel premises. The officer accompanied staff to
Young's room and waited in the hallway while they searched. However, the officer observed a
firearm in plain sight, and he entered the room and seized the firearm and other items.
The Ninth Circuit determined that Young had a legitimate privacy interest in his room because he
was still the lawful occupant when the police officer entered it. The court concluded that the hotel had

lyfcases

2

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

22609032

ORDERED as follows:
1. The magistrate judge's Report and Recommendation [Record No. 42] is ADOPTED and
INCORPORATED, in full.
2. Defendant Powell's motion to suppress [RecordTfo. 24] is DENIED.
Dated: July 8, 2019.
Singed By: Isl Danny C. Reeves
Danny C. Reeves
United States District Judge

lyfcases

4

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

22609032

